0

4nve tl
                   -
                       CLOSEOUT FOR M90090033
     This case was brought to the attention of OIG by 0
         Program Director for the
Pro ram, ~ivision4 r
              on September 12, 1990. 0r
           rs had submitted proposals under the
             -that
                                    in the area
                                                 , Directorate


                      used identlbal language in their discussions
of the general research problem and broad technical approach. The
                                                                  --
subsequent specific discussions of technical approaches in the
orooosals were different. The two investisators in uuestion were


-men contacted by OIG, both subjects reported that the identical
material derived-f rom -a rsro~osafwritten by W

  submitted b y m e
  #1 had been                                 -

                         -
  served as industrial partner
  to theq
                                     -
  compiling the m a 1 author's proposal. Subject #2 ' s
                                 with-       in the - -
                                          The original author told OIG
  that, after the proposal was rejeFted by the
-4              he had given verbal permission to
   it elsewhere with subject #2 as prime contractor.~avingforgotten
  his arrangement with Subject #2, he then gave permission to Subject
  #1 to submit the proposal to NSF on behalf of Subject #lls-
  Thus the original author gave both investigators permission to
  adapt his proposal and submit it for funding. However, both used
  verbatim excerpts in,their submissions to NSF, and neither subject
  cited the proposal or the original author when he did so.
        OIG determined that insufficient evidence existed to pursue an
   investigation of misconduct in science. Two factors shaped our
  decision to close the case at this stage. (1) Both subjects were
   close collaborators of the original author and listed either his
   research center as a subcontractor (Subject #1) or the original
  author as an unpaid consultant (Subject # 2 ) in their proposals.
   (2) In response to our inquiries, both subjects indicated that they
  believed in good faith that they had permission to revise and adapt
   the original author's proposal and then submit it as their own. The
   original author confirmed that his conversations with both subjects
   reasonably could have led them to this belief.
        OIG also concluded that both subjects and the original author
  were guilty of negligent practices. We wrote a letter to Subject #1
   criticizing him for incorporating language from an earlier research
  proposal by another investigator without indenting the material,
   enclosing it in quotation marks, or citing the original source. We
  wrote to the original author criticizing him for giving two
   researchers permission to adapt and submit his proposal and not
   clearly specifying the terms of their collaboration or the credit
due him for his original contributions to the proposals derived
from his work. Subject #2 died before we closed the case.
     This case is closed without further action.




Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight




                        7 / /917 3
James J. Zwolenik
Assistant inspector General for Oversight




Montgomery K. Fisher
Counsel to the Inspector General
cc: Assistant Inspector General for Oversight
    Inspector General
